Capital Case - Execution October 5, 2021 at 6:00 p.m. Central
No. 21-_ __
In The Supreme Court Of The United States

ERNEST JOHNSON,

Petitioner,
V.

PAUL BLAIR,

Respondent.

CERTIFICATE OF SERVICE AND COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court
and that two true and correct copies of Petitioner's "Application for Stay of
Execution, Motion to Proceed in Forma Pauperis, Petition for Writ of Certiorari,
and Petition for Writ of Certiorari Appendix" were filed through the Electronic Case
Filing and forwarded pursuant to Supreme Court Rule 29.5(b), postage prepaid, this
1..1-1-k
_l_

day of October, 2021:
Mr. Gregory M. Goodwin
Assistant Attorney General
P.O. Box 899
Jefferson City, MO 65102

The original and ten copies of Petitioner's "Application for Stay of Execution, Motion
to Proceed in Forma Pauperis, Petition for Writ of Certiorari, and Petition for Writ
of Certiorari Appendix" thereto will be also forwarded to:

William Suter, Clerk
United States Supreme Court
One First Street N.E.
Washington, DC 20543

/

apital Habeas nit,
JEREMYS. WE
Assistant Federal Public Defender
PAULA K. HARMS
Assistant Federal Public Defender
Federal Public Defender
Western District of Missouri
1000 Walnut, Suite 600
Kansas City, MO 64106
laurence komp@fd.org
(816) 471-8282
COUNSEL FOR PETITIONER
*Counsel of Record

